WAIVER

Supreme Court, U.S.
FILED

JAN 1 2 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

800 Services, Inc.

20-917
AT&T Corp.
v

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
ri Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

D I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

January 12, 2021

(Type or print) Name

Richard H. Brown
011] Mr.

D Ms.

Day Pitney LLP
1 Jefferson Road
Address
Parsippany NJ
City & State

D Mrs.

D Miss

Firm

Phone

973-966-8119

07054
rbrown@daypitney.com
Email
Zip

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Robert L. Sirianni Jr., Esq.

RECEIVED
JAN 1 5 2021
ME THE CLE
SUPRE COURT

DAY PITNEY L L P
BOSTON CONNECTICUT NEW JERSEY NEW YORK WASHINGTON, DC

RICHARD H. BROWN
Attorney at Law
One Jefferson Road
Parsippany, NJ 07054-2891
T: (973) 966-8119 F: (973) 206-6659
rbrown@daypitney.com

January 12, 2021
VIA UPS OVERNIGHT DELIVERY
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

800 Services, Inc. v. AT&T Corp.
Case No. 20-917

Dear Mr. Harris:
On behalf of Respondent AT&T Corp., I hereby submit an original and one copy of a
waiver in connection with the petition for a writ of certiorari filed by Petitioner 800 Services,
Inc. in this matter. I respectfully request that you file stamp the copy and return it to me in the
enclosed, self-addressed stamped envelope. Please contact me if you have any questions.
Respectfully submitted,

Richard H. Brown
R1113/
cc:
Robert L. Sirianni, Jr., Esq.

